APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(December 12, 2019) . . . . . . . . . . . App. 1
Appendix B Order and Final Judgment in the
United States District Court for the
Southern District of Mississippi
Northern Division
(April 11, 2018) . . . . . . . . . . . . . . App. 21
Appendix C Memorandum Opinion and Order and
Final Judgment in the United States
Bankruptcy Court Southern District of
Mississippi
(December 12, 2017) . . . . . . . . . . App. 24
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Fifth Circuit
(January 10, 2020) . . . . . . . . . . . App. 57

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60344
[Filed December 12, 2019]
_________________________________________
In the Matter of: CHUCK WILLIS
)
)
Debtor.
)
)
TOWER LOAN OF MISSISSIPPI, L.L.C.,
)
Doing Business as Tower Loan of
)
Crystal Springs,
)
)
Appellant,
)
)
versus
)
)
CHUCK WILLIS,
)
)
Appellee.
)
_________________________________________ )
Appeal from the United States District Court
for the Southern District of Mississippi
Before OWEN, Chief Judge, SMITH and DENNIS,
Circuit Judges.

App. 2
JERRY E. SMITH, Circuit Judge:
In adversary bankruptcy proceedings, Chuck Willis
sued Tower Loan of Mississippi, L.L.C. (“Tower Loan”),
for allegedly violating the Truth in Lending Act
(“TILA”). Tower Loan moved to dismiss or compel
arbitration. The bankruptcy court denied the motion,
and the district court affirmed. Tower Loan appeals.
Because the parties reached a valid agreement to
arbitrate and delegated threshold arbitrability issues
to the arbitrator, we reverse and remand with
instructions to refer this case to arbitration.
I.
This appeal centers on the relationship between two
arbitration agreements that Willis signed in November
2016 when he borrowed money from Tower Loan via an
Installment Loan Agreement and Disclosure Statement
(“loan agreement”). The loan agreement showed that
Willis had also purchased insurance policies; those
policies were issued by Tower Loan subsidiaries. In
signing the loan agreement, Willis agreed to an
arbitration agreement found on its back side (“first
arbitration agreement”). And in purchasing the
insurance policies, Willis agreed to a separate
arbitration agreement (“second arbitration
agreement”). Though Tower Loan didn’t sign the
second agreement, a Tower Loan representative had
handed it to Willis for his signature.1
1

That fact is not in the record, but counsel for Tower Loan
conceded at oral argument that a Tower Loan representative—and
not a representative for the insurance companies—handed Willis
the second arbitration agreement.

App. 3
The two arbitration agreements are similar but not
identical. Start with the similarities. Both broadly
require arbitration for all disputes between and among
Willis, Tower Loan, and the insurance companies,
including any that arise from the loan or the policies.
Each agreement binds Willis to arbitrate any dispute
with Tower Loan’s affiliates. Both delegate to the
arbitrator the power to decide gateway arbitrability
issues, including whether a given claim is covered. But
the agreements conflict over several procedural aspects
of the arbitration, relating mainly to the selection and
number of arbitrators, time to respond, location, and
fee-shifting.
In January 2017, Willis filed for Chapter 7
bankruptcy. About four months later, he sued Tower
Loan in an adversary proceeding, alleging that the
company had violated the TILA, 15 U.S.C. § 1601 et
seq., by providing inaccurate disclosures in the loan
agreement. After answering, Tower Loan moved to
dismiss or compel arbitration.
The bankruptcy court denied the motion. It held
that the first and second arbitration agreements
formed a single contract and that the conflicting
provisions meant that Willis and Tower Loan hadn’t
formed a sufficiently definite contract to arbitrate
under Mississippi law. The district court affirmed in a
terse opinion that added nothing on the merits.2 Tower
Loan appeals, contending that the arbitration
agreements should be construed separately and that
2

Because the district court’s opinion adopted the bankruptcy
court’s reasoning in its entirety, our references are to the
bankruptcy court.

App. 4
even if we construe them together, the parties still
formed a valid contract.
II.
“We review de novo a ruling on a motion to compel
arbitration” and follow “two analytical steps” in doing
so. Kubala v. Supreme Prod. Servs., Inc., 830 F.3d 199,
201 (5th Cir. 2016). We first apply state law to
determine whether the parties formed “any arbitration
agreement at all.” Id. Second, we interpret the contract
“to determine whether this claim is covered by the
arbitration agreement.” Id. The second step is also
ordinarily for the court. Id. But “the analysis changes”
where the agreement delegates to “the arbitrator the
primary power to rule on the arbitrability of a specific
claim.” Id. In such a case, we ask only whether there is
a valid delegation clause.3 If there is, then the
arbitrator decides whether the claim is arbitrable. Id.
III.
The first question per Kubala is whether, as a
matter of Mississippi law,4 the parties created a valid
contract to arbitrate. Id. That requires us to resolve
two related issues. First, should the arbitration
agreements be construed as one contract? Second,
3

Specifically, we ask whether the clause “evinces an intent to have
the arbitrator decide whether a given claim must be arbitrated.”
Kubala, 830 F.3d at 202.
4

Because the loan agreement has a choice-of-law provision for
Mississippi, we apply the law of that state. See Nethery v.
CapitalSouth Partners Fund II, L.P., 257 So. 3d 270, 273 (Miss.
2018) (applying Delaware law per the contract’s choice-of-law
clause in reviewing motion compelling arbitration).

App. 5
assuming we construe them together, did the parties
have a meeting of the minds as to arbitration?
A. Contract Construction
The bankruptcy court construed the arbitration
agreements together, noting that both cover all
disputes between Willis and Tower Loan. Tower Loan
contends that the agreements should be construed
separately because Tower Loan assented only to the
first arbitration agreement and not the second. The
company suggests that because it did not sign or
otherwise agree to the second, it cannot be considered
a party to it. Hence, on Tower Loan’s theory, only the
first agreement applies.
We disagree. Under Mississippi law, “when separate
documents are executed at the same time, by the same
parties, as part of the same transaction, they may be
construed as one instrument.”5 All of those
requirements are met, so the bankruptcy court properly
construed the agreements as one.
First, Tower Loan is a party to the second
arbitration agreement just as it is to the first. Tower
Loan conceded at oral argument that its representative
handed Willis both arbitration agreements to sign. And
the agreements are closely related. Each requires
Willis to arbitrate any dispute involving Tower Loan.
5

Sullivan v. Mounger, 882 So. 2d 129, 135 (Miss. 2004); accord
Neal v. Hardee’s Food Sys., Inc., 918 F.2d 34, 37 (5th Cir. 1990)
(“Under general principles of contract law, separate agreements
executed contemporaneously by the same parties, for the same
purposes, and as part of the same transaction, are to be construed
together.”).

App. 6
Both apply to all disputes that arise from the loan
Willis received and the insurance he purchased.
Moreover, the loan agreement—to which Tower Loan
is indisputably bound—shows that Willis purchased
the insurance policies that the company insists are part
of an entirely separate transaction.6
Next, Tower Loan and Willis executed the two
agreements at the same time and as part of the same
transaction. As stated above, a Tower Loan
representative handed Willis both agreements, and the
loan agreement evidences both the loan and the
insurance purchases. Accordingly, the arbitration
agreements were “executed at the same time, by the
same parties, as part of the same transaction.”
Sullivan, 882 So. 2d at 135. We construe them
together.
B. Meeting of the Minds
Next, construing the agreements as one, we decide
whether Willis and Tower Loan entered into a valid
contract to arbitrate despite inconsistencies in the
contractual terms.

6

On a related point, Tower Loan avers that the arbitration
agreements are separate because Willis supposedly executed them
for different purposes—the first to get a loan, the second to
purchase insurance. We see it differently. As already noted, the
loan agreement shows that Willis purchased the insurance. And
each arbitration agreement states that it applies to any dispute
arising from both the loan and the insurance. So, it makes little
sense to say that the agreements were executed for different
purposes.

App. 7
1.
To form a contract, Mississippi law requires, among
other things,7 “mutual assent”8 or a “meeting of the
minds”9 as to essential terms, as well as a contract that
is “sufficiently definite” to “enable the court under
proper rules of construction to ascertain its terms.”
Leach v. Tingle, 586 So. 2d 799, 802 (Miss. 1991). A
“[d]etermination that an agreement is sufficiently
definite is favored in the courts, so as to carry out the
reasonable intention of the parties if it can be
ascertained.” Jones v. McGahey, 187 So. 2d 579, 584
(Miss. 1966). Thus, “[a] court will, if possible, interpret
doubtful agreements by attaching a sufficiently definite
meaning to a bargain if the parties evidently intended
to enter into a binding contract.” 1 WILLISTON ON
CONTRACTS (“WILLISTON”) § 4:21 (4th ed. 2019).
Mississippi courts have not addressed whether
conflicting terms in an arbitration agreement prevent
a contract from forming.

7

Mississippi law also requires that there be multiple contracting
parties with legal capacity, consideration, and no “legal prohibition
precluding contract formation.” See GGNSC Batesville, LLC v.
Johnson, 109 So. 3d 562, 565 (Miss. 2013). Willis and Tower Loan
don’t dispute that those elements are met.
8
9

GGNSC Batesville, LLC, 109 So. 3d at 565.

Howard v. TotalFina E & P USA, Inc., 899 So. 2d 882, 889 (Miss.
2005).

App. 8
2.
The bankruptcy court identified several terms in
conflict between the two arbitration agreements. They
relate to (1) the number of arbitrators,10 (2) selection of
arbitrators,11 (3) time allowed to respond,12 (4) location
of the arbitration,13 (5) who pays the arbitration costs,14
(6) who is entitled to attorneys’ fees and on what

10

The first agreement requires a single arbitrator. The second
provides for one arbitrator but permits either party to request a
panel of three—provided that the requesting party agrees to pay
the extra costs.
11

Both agreements state that the parties should mutually select
an arbitrator. The first agreement provides that if the parties
cannot agree, then the Federal Arbitration Act’s selection
provisions will apply. But under the second agreement, if the
parties can’t agree, then the National Arbitration Forum will
appoint the arbitrator.
12

The first agreement gives a party thirty days to deliver an
answering statement after receiving notice of the demand for
arbitration. The second allows only twenty.
13

The first agreement requires that the arbitration take place in
Rankin County, Mississippi, unless the borrower requests that it
be held in his county of residence or principal place of business.
But the second agreement requires that the arbitration be held in
the borrower’s county of residence unless the parties agree
otherwise.
14

The first agreement requires the lender to “pay the arbitrator’s
fees and expenses for the first two days of [the] hearings,” and it
directs the arbitrator to require the parties to “pay his or her fees
and other costs according to the relative fault of the parties.” But
the second agreement requires the “company” to “pay all costs of
the arbitration, except that each party must” pay for its own
attorneys, experts, and witnesses.

App. 9
showing,15 and (7) when arbitration doesn’t apply.16 The
court held that those inconsistencies prevented a
meeting of the minds, so Willis and Tower Loan hadn’t
agreed to arbitrate.
For that conclusion, the bankruptcy court relied
mainly on Ragab v. Howard, 841 F.3d 1134 (10th Cir.
2016), which applied Colorado contract law. There (as
here) the court analyzed multiple arbitration
agreements that had conflicting procedural terms and
held that the inconsistencies precluded a meeting of the
minds. See id. at 1136–38. Justice (then-Judge) Neil
Gorsuch dissented and would have concluded that the
parties had agreed to arbitrate. Id. at 1139–41
(Gorsuch, J., dissenting). He urged that even if the
parties “differ[ed] on the details concerning how
arbitration should proceed,” they united “on the
fundamental question whether they wish[ed] to
arbitrate or not.” Id. at 1139, 1141. The rest was minor
procedural detail. See id. at 1139.
3.
Willis asks us to follow Ragab and hold that the
conflicting provisions thwarted a meeting of the minds.
We decline his request. The parties’ intentions were
unmistakable: They wished to arbitrate any dispute
15

The first agreement doesn’t say which party must pay fees for
attorneys, experts, and witnesses. But the second agreement says
that each party must bear its own costs in those regards unless the
arbitrator decides otherwise.
16

The first agreement states that the lender isn’t required to
arbitrate “for collection matters of $10,000 or less” or before the
lender “repossess[es] collateral or foreclos[es] upon real property.”
The second agreement contains no such carve-out.

App. 10
that might arise between them. Not once but twice they
stated that any dispute arising from the loan Willis
purchased should be arbitrated. Both agreements
broadly cover “all claims and disputes between” Willis
and Tower Loan, and both embrace any federal-law
claim that Willis brings. The parties thus “evidently
intended to enter into a binding contract.” 1 WILLISTON
§ 4:21. We have more than enough to ascertain the
terms. See Leach, 586 So. 2d at 802.
The conflicting provisions do not change that result.
Though the agreements differ over procedural details,
they speak with one voice about whether to arbitrate.
We thus find good company in Justice Gorsuch: We will
not shut our eyes to an agreement that demonstrates
a baseline intent to arbitrate just because it contains
inconsistent terms about procedural minutiae. See
Ragab, 841 F.3d at 1139–41 (Gorsuch, J., dissenting).
Willis points out that contracts fail for
indefiniteness where they don’t set out matters such as
the price in a first-refusal contract or rent owed under
a lease.17 So too here, he contends, we should find the
contract indefinite because of the inconsistencies. But
the conflicting terms here aren’t like the essential
terms of price and rent. Instead, they concern such
innocuities as the number of arbitrators, location, and
fee shifting. As Willis concedes, procedural terms about
“time for performance and time for payment are non17

See Intrepid, Inc. v. Bennett, 176 So. 3d 775, 778–79 (Miss. 2015)
(“Without a definite agreement as to the amount of rental, there
can be no binding lease contract.”); Duke v. Whatley, 580 So. 2d
1267, 1273 (Miss. 1991) (refusing to enforce a first-refusal contract
with a missing price).

App. 11
essential.”18 The inconsistent terms here are similarly
non-essential. Hence, under Mississippi law, the
parties validly contracted to arbitrate.
IV.
Ordinarily the next step—after concluding that
there is a valid agreement—is to determine whether
this claim is arbitrable. See Kubala, 830 F.3d at 201.
But because Tower Loan has pointed to a delegation
clause, we ask only whether the parties “evince[d] an
intent to have the arbitrator decide whether a given
claim must be arbitrated.” Id. at 202. They did. Each
arbitration agreement has a delegation clause that
mirrors the one we held valid in Kubala.19 Hence, it is
18

See, e.g., Etheridge v. Ramzy, 276 So. 2d 451, 454 (Miss. 1973)
(recognizing that time for payment isn’t an essential term); Smith
v. Mavar, 21 So. 2d 810, 811 (Miss. 1945) (noting that time for
performance isn’t an essential term).
19

The delegation clause in Kubala, 830 F.3d at 204, stated that
[t]he arbitrator shall have the sole authority to rule on
his/her own jurisdiction, including any challenges or
objections with respect to the existence, applicability,
scope, enforceability, construction, validity and
interpretation of this Policy and any agreement to
arbitrate a Covered Dispute.

The delegation clause in the first arbitration agreement states that
[t]he Arbitrator shall have the power to rule on his or her
own jurisdiction, including any objections with respect to
the existence, scope, or validity of the Arbitration
Agreement, or the to the [sic] arbitrability of any claim or
counterclaim.
The delegation clause in the second arbitration agreement states
that the agreement applies to disputes over “[w]hether the claim
or dispute must be arbitrated” and “the validity of this arbitration
agreement.”

App. 12
for the arbitrator—not us—to decide whether Willis’s
TILA claim is arbitrable. See id. It is similarly the
arbitrator’s province to resolve the inconsistent
procedural terms.20
*

*

*

*

For the foregoing reasons, the order denying Tower
Loan’s motion to dismiss or compel arbitration is
REVERSED, and we REMAND to the district court
and direct it to refer the dispute to arbitration.

20

See, e.g., BG Grp. PLC v. Republic of Arg., 572 U.S. 25, 34 (2014)
(recognizing general presumption that “the parties intend
arbitrators, not courts, to decide disputes about the meaning and
application of particular procedural preconditions for the use of
arbitration”); Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79,
84 (2002) (“Procedural questions which grow out of the dispute and
bear on its final disposition are presumptively not for the judge,
but for an arbitrator, to decide.” (cleaned up)).

App. 13
JAMES L. DENNIS, Circuit Judge, dissenting:
I respectfully dissent. In my view, the bankruptcy
court properly applied state law and common law
contract principles in deciding there was not a meeting
of the minds or mutual assent on a contract to
arbitrate. Hence, the bankruptcy court and district
court judgments refusing to order arbitration should be
affirmed. The majority of this panel reverses, however,
following a dissent in the Tenth Circuit Court of
Appeals that relied on a unique analogy to the “battle
of forms” concept in UCC cases. See Ragab v. Howard,
841 F.3d 1134, 1140 (10th Cir. 2016) (Gorsuch, J.,
dissenting). The merit of that dissent’s reasoning is
debatable and does not appear to have been applied by
any court to decide a meeting of the minds issue with
respect to arbitration. If it is ever applied, its use
should be limited to the kind of case and contract with
respect to which it was conceived: a case that “involves
parties to a commercial, not a consumer, transaction,
with contracts actively negotiated by both sides, not
contracts of adhesion thrust upon the plaintiff.” Id.
Indeed, it is precisely because Ragab involved
transactions between knowledgeable merchants that
the Ragab dissent deemed the battle of the forms—in
which “conflicting terms [on merchants’ standardized
forms] . . . knock each other out but do not void [a]
contract”—an apt analogy. Id. The present case, by
contrast, involves ordinary consumer loan and
insurance contracts that were presented to Willis, a
mechanic and truck driver, without his having had the
benefit of counsel or bilateral negotiation, but on a take
it or leave it basis. Given this consumer transaction
context, I agree with the bankruptcy court that an

App. 14
analogy to the “mirror image” rule, where neither party
is bound when the acceptance differs from the offer, is
more appropriate. Accordingly, I believe the majority
falls into serious error in adopting the Ragab dissent as
a model for deciding the issue of mutual assent in
consumer transactions in our circuit.
The Supreme Court has repeatedly reaffirmed that
the Federal Arbitration Act (FAA) “declare[s] a
national policy favoring arbitration of claims that
parties contract to settle in that manner.” Preston v.
Ferrer, 552 U.S. 346, 353 (2008) (alteration in original)
(internal quotation marks and citation omitted). In
determining whether to enforce an arbitration
agreement, our circuit follows “two analytical steps.
The first is contract formation—whether the parties
entered into any arbitration agreement at all. The
second involves contract interpretation to determine
whether this claim is covered by the arbitration
agreement.” Kubala v. Supreme Prod. Servs., Inc., 830
F.3d 199, 201 (5th Cir. 2016). The initial question,
therefore, is whether as a matter of state contract law,
the parties have entered into a valid arbitration
agreement. See id. at 202. Importantly, the “federal
policy favoring arbitration does not apply to th[is]
determination.” Fleetwood Enters., Inc. v. Gaskamp,
280 F.3d 1069, 1073–74 (5th Cir. 2002), opinion
supplemented on denial of reh’g, 303 F.3d 570, 571 (5th
Cir. 2002).
Under Mississippi law, a meeting of the minds is
required to form a contract. See Brooks v. Brooks, 111
So. 376, 377 (Miss. 1927). As the majority notes, there
is no Mississippi caselaw on whether conflicting terms

App. 15
in arbitration agreements may prevent a meeting of the
minds and thus thwart the formation of a contract to
arbitrate. However, two courts in outside jurisdictions
have addressed this subject and concluded that the
parties in each case did not agree to arbitrate. See
Ragab, 841 F.3d at 1138; NAACP of Camden Cty. E. v.
Foulke Mgmt. Corp., 24 A.3d 777, 794 (N.J. Super. Ct.
App. Div. 2011). The majority makes scant mention of
the principal holding in the first case, Ragab v.
Howard, focusing almost solely (and misguidedly) on
the dissent by then Judge (now Justice) Gorsuch and
does not even cite the NAACP of Camden Cty. E. v.
Foulke Mgmt. Corp. decision. An examination of the
Ragab majority opinion and NAACP, however, shows
that their reasoning is persuasive and ought be applied
here.
In NAACP, a consumer who was buying a new
vehicle signed various documents provided by the
dealership in connection with her purchase. 24 A.3d at
780, 794-95. Several of the forms contained arbitration
provisions, which conflicted with respect to the
following material terms: (1) the venue of the
arbitration, (2) which arbitration organization’s rules
would govern, (3) the time by which arbitration must
be initiated, (4) how the costs of arbitration would be
allocated, including whether a party was liable for
attorneys, experts, and witness fees and on what
showing, and (5) class-action waiver provisions. Id. at
794-95. After a dispute arose between the parties, the
dealership moved to compel arbitration. Id. at 780. A
New Jersey appeals court determined that there was
no “meeting of the minds” on the issue of arbitration
and thus no enforceable arbitration agreement because

App. 16
“[v]iewed in their totality, the arbitration provisions . . .
are too plagued with . . . inconsistencies to put a
reasonable consumer on fair notice of their intended
meaning.” Id. at 794.
Similarly, in Ragab, the Tenth Circuit majority
confronted multiple arbitration agreements that
conflicted over “(1) which rules will govern, (2) how the
arbitrator will be selected, (3) the notice required to
arbitrate, and (4) who would be entitled to attorneys’
fees and on what showing.” Ragab, 841 F.3d at 1136.
Applying Colorado law, the Tenth Circuit affirmed the
district court’s denial of a motion to compel arbitration.
Id. Like the NAACP court, the Tenth Circuit concluded
that the multiple inconsistencies thwarted a meeting of
the minds—a requirement under state law to form a
contract. Id. at 1137-38 (citing Agritrack, Inc. v.
DeJohn Housemoving, Inc., 25 P.3d 1187, 1192 (Colo.
2001)).
In the present case, the two arbitration agreements
contain seven conflicting terms, which the majority
inappropriately downplays as differences over mere
“procedural minutiae.” In the majority’s view, these
discrepancies do not defeat the conclusion that the
parties agreed on the fundamental question of whether
to arbitrate. Far from conflicting exclusively over a few
“procedural details,” however, the variances here are
like those in NAACP and Ragab: numerous and
material, concerning terms that go to the heart of
arbitration. See Ragab, 841 F.3d at 1138; NAACP, 24
A.3d at 794; see also Rotenberry v. Hooker, 864 So.2d
266, 270 (Miss. 2003) (noting that under Mississippi

App. 17
law, “[a] contract is unenforceable if the material terms
are not sufficiently definite”).
Take, for instance, the discrepancy over how long a
party has to respond to a notice of demand for
arbitration. While the first agreement provides for
thirty days to deliver an answering statement after
receiving notice, the second agreement permits only
twenty days. A significant cost follows from filing an
untimely answering statement: the opposing party is
entitled to select the arbitrator. The length of time to
respond to the notice is, thus, an important aspect of
this agreement, and the ten-day difference in time to
file a reply is a material distinction. Indeed, a
difference over the length of notice required prior to
proceeding to arbitration was one of the four conflicts
in Ragab deemed significant enough to preclude
formation of an agreement to arbitrate. See Ragab, 841
F.3d at 1136.
Like the arbitration agreements in NAACP, the
agreements here also differ over the location of
arbitration. See 24 A.3d at 794. While the first
agreement requires that the arbitration be held in
Rankin County, Mississippi, unless the borrower
requests in the demand for arbitration or answering
statement that it to be held in his county of residence,
the second agreement states the arbitration will occur
in the borrower’s county of residence. The impact of
this distinction is reduced somewhat because the first
agreement empowers the borrower to move the
arbitration to her county of residence, thus aligning the
agreements. However, the borrower can only do so if
(when the borrower is the party answering a demand)

App. 18
she timely files an answering statement—and, as
explained, the time by which a party must file such a
statement is uncertain.
As with the arbitration provisions at issue in Ragab,
the agreements here further conflict regarding how the
arbitrator will be selected. See Ragab, 841 F.3d at
1136. The first agreement states that if the parties are
unable to agree upon an arbitrator then the provisions
of the Federal Arbitration Act (FAA) govern. See 9
U.S.C. § 5. Under the FAA, the court designates the
arbitrator. Id. Conversely, the second arbitration
agreement provides that in the event the parties do not
agree upon the arbitrator then the National Arbitration
Forum (NAF) will appoint the arbitrator.1
The most glaring—and material—difference
between the agreements concerns who pays for the
arbitration. This is analogous to both NAACP and
Ragab; in those cases, inconsistencies between
provisions on how the costs of arbitration would be
allocated were key to the courts’ determination that
there was no meeting of the minds to arbitrate. See
Ragab, 841 F.3d at 1136; NAACP, 24 A.3d at 795.
Here, the first agreement requires the lender to “pay
the arbitrator’s fees and expenses for the first two
days,” yet later says that the “arbitrator shall direct
the parties to pay his or her fees and other costs
according to the relative fault of the parties.” The
1

The bankruptcy court noted that, following litigation, the NAF
agreed to permanently stop administering arbitrations involving
consumer debt. Thus, under the second agreement, it is unclear
how an arbitrator will be selected if the parties cannot agree on
whom to appoint.

App. 19
bankruptcy court recognized this “internal[]
inconsistency” in the first agreement. As if that weren’t
confusing enough, the second agreement requires
Tower Loan to “pay all the costs of the arbitration,
except that each party” pays for its own attorneys,
experts, and witnesses. In view of these
contradictions—both internal and otherwise—the
bankruptcy court aptly opined that it couldn’t “discern
whether Tower Loan pays none, some, or all of the
costs” of the arbitration.
As demonstrated, the extent of the conflicting terms
here parallels the contradictory provisions in Ragab
and NAACP. See Ragab, 841 F.3d at 1136; NAACP, 24
A.3d at 794-95. Indeed, the differences here are more
numerous than in either of those cases. Without
rehashing the details of the other remaining differences
between the agreements—including over the number of
arbitrators—it suffices to say that these conflicting
terms are so copious and of such considerable import
that there was no meeting of the minds. See Brooks v.
Brooks, 111 So. 376, 377 (Miss. 1927).
While the sheer number of discrepancies militates
in favor of a determination that there was no formation
of a contract to arbitrate, this conclusion is further
supported by the nature of the conflicts. I simply
cannot agree with my colleagues’ conclusion that these
inconsistencies relate only to “non-essential”
provisions. For instance, the matter of who pays for the
arbitration is more akin to the essential term of price
in a contract than it is to a mere “procedural detail” of
the arbitration. See Leach v. Tingle, 586 So. 2d 799, 803
(Miss. 1991) (noting that price is an essential term of a

App. 20
contract); see also Ragab, 841 F.3d at 1137 (finding
that the three conflicting provisions prevented an
agreement “upon all essential terms” (quoting I.M.A.,
Inc. v. Rocky Mountain Airways, Inc., 713 P.2d 882, 888
(Colo. 1986))); NAACP, 24 A.3d at 798 (describing the
conflicting terms as relating to “material parts of the
arbitration”). It is also worth observing that this is not
a case where one of the agreements contains a merger
clause, which could potentially permit that agreement’s
arbitration clause to supersede the other one, thereby
resolving the problem of the conflicting provisions. Cf.
Ex parte Palm Harbor Homes, Inc., 798 So.2d 656, 66061 (Ala. 2001) (compelling arbitration pursuant to the
terms contained in a contract with a merger clause
because the merger clause caused that contract to
supersede other agreements that had differing
arbitration provisions).
The arbitration provisions here are “too plagued
with . . . inconsistencies to put a reasonable consumer
on fair notice of their intended meaning.” Ragab, 841
F.3d at 1138 (quoting NAACP, 24 A.3d at 794). What’s
more, arbitrarily enforcing the terms of one agreement
“[w]ould violate the other” agreement. Id. In sum, the
cumulative effect of the conflicting terms compels the
conclusion that there was no mutual assent to
arbitrate, and thus Willis cannot be forced to arbitrate.
See GGNSC Batesville, LLC v. Johnson, 109 So. 3d 562,
565 (Miss. 2013) (stating that “mutual assent” is an
essential term of a contract).
For these reasons, I respectfully dissent.

App. 21

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI NORTHERN DIVISION
CAUSE NO. 3:17-CV-1024-CWR-FKB
[Filed April 11, 2018]
______________________________________
TOWER LOAN OF MISSISSIPPI, LLC )
APPELLANT
)
)
V.
)
)
CHUCK WILLIS
)
APPELLEE
)
______________________________________ )
ORDER
In this case, the Bankruptcy Court found that
Chuck Willis and Tower Loan of Mississippi never
formed a sufficiently definite agreement to arbitrate.
Tower Loan now appeals. Review is de novo.
This is another case where it may cost more to
litigate a narrow issue—here, whether the dispute
should be heard by private arbitrators or public
judges—than the total value of the underlying dispute.
E.g., In re Martin, 513 B.R. 303 (Bankr. S.D. Miss.
2014) (finding $1,869.95 loan to be dischargeable), aff’d
sub nom. Country Credit, LLC v. Martin, No. 3:14-CV709-CWR-LRA, 2015 WL 5656003 (S.D. Miss. Sept. 24,

App. 22
2015), aff’d sub nom. Matter of Martin, 651 F. App’x
279 (5th Cir. 2016).1 After all, once Tower Loan has
paid for this appeal and another to the Fifth Circuit2,
it will still have to defend itself on the merits in one
forum or another.
More surprising, perhaps, is Tower Loan’s claim
that so few terms in its arbitration agreement are
material. In different circumstances, one suspects
Tower Loan would argue fervently that contractual
terms governing the number of arbitrators, the
arbitrator selection process, the venue of arbitration,
and the cost of arbitration, among others, were all
material to its arbitration agreement. But here we are.
In any event, the undersigned has reviewed the
arguments and authorities. It concludes that the
Bankruptcy Court’s thoughtful, meticulous, and wellreasoned opinion should be and hereby is affirmed in
its entirety. A separate Final Judgment shall issue this
day.
SO ORDERED, this the 11th day of April, 2018.
s/ Carlton W. Reeves___________________
UNITED STATES DISTRICT JUDGE
1

The underlying loan amount is not significant to Tower Loan, but
the loan amount plus the fees for insurance and the associated
extraordinary interest rate charged to the debtor is anything but
inconsequential to the debtor, who is not a sophisticated party to
the agreement.
2

Before any ruling was issued, Tower Loan’s attorneys had no
doubt that they were continuing to the Fifth Circuit, having
submitted to this Court briefs noting their compliance with Fifth
Circuit Rules 25.2.13 and 32.2.

App. 23
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI NORTHERN DIVISION
CAUSE NO. 3:17-CV-1024-CWR-FKB
[Filed April 11, 2018]
______________________________________
TOWER LOAN OF MISSISSIPPI, LLC )
APPELLANT
)
)
V.
)
)
CHUCK WILLIS
)
APPELLEE
)
______________________________________ )
FINAL JUDGMENT
Having entered an Order affirming the Bankruptcy
Court, it is appropriate to issue this Final Judgment
and close this case on the docket. Accordingly,
IT IS HEREBY ORDERED AND ADJUDGED
that this case is dismissed with prejudice.
SO ORDERED, this the 11th day of April, 2018.
s/ Carlton W. Reeves___________________
UNITED STATES DISTRICT JUDGE

App. 24

APPENDIX C
UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF MISSISSIPPI
CASE NO. 17-00160-NPO
CHAPTER 7
ADV. PROC. NO. 17-00025-NPO
[Filed December 12, 2017]
____________________________________________
IN RE: CHUCK WILLIS,
)
)
DEBTOR.
)
)
CHUCK WILLIS
)
)
PLAINTIFF
)
)
VS.
)
)
TOWER LOAN OF MISSISSIPPI, LLC, d/b/a
)
TOWER LOAN OF CRYSTAL SPRINGS
)
)
DEFENDANT
)
____________________________________________ )
[SEAL]

SO ORDERED,
Judge Neil P. Olack
United States Bankruptcy Judge
Date Signed: December 12, 2017

App. 25
The Order of the Court is set forth below. The
docket reflects the date entered.
MEMORANDUM OPINION AND ORDER ON
DEFENDANT TOWER LOAN’S MOTION TO
DISMISS OR, ALTERNATIVELY, TO COMPEL
ARBITRATION AND TO DISMISS OR STAY
CLAIMS PENDING ARBITRATION
This matter came before the Court for hearing on
October 25, 2017 (the “Hearing”), on the Defendant
Tower Loan’s Motion to Dismiss or, Alternatively, to
Compel Arbitration and to Dismiss or Stay Claims
Pending Arbitration (the “Motion to Dismiss or to
Compel Arbitration”) (Adv. Dkt. 8)1 filed by Tower Loan
of Mississippi, LLC (“Tower Loan”), the Defendant
Tower Loan’s Memorandum in Support of Motion to
Dismiss or, Alternatively, to Compel Arbitration and to
Dismiss or to Stay Pending Arbitration (“Tower Loan’s
Brief”) (Adv. Dkt. 9) filed by Tower Loan, the Plaintiff’s
Response to Defendant’s Motion to Dismiss and to
Compel Arbitration (the “Debtor’s Response”) (Adv.
Dkt. 17) filed by the debtor, Chuck Willis (the
“Debtor”), the Memorandum Brief in Support of
Plaintiff’s Response to Defendant’s Motion to Dismiss
and to Compel Arbitration (the “Debtor’s Brief”) (Adv.
Dkt. 18) filed by the Debtor, and the Defendant Tower
Loan’s Reply in Support of its Motion to Compel
Arbitration and to Dismiss or to Stay Pending
1

Citations to the record are as follows: (1) citations to docket
entries in the above-styled adversary proceeding (the “Adversary”)
are cited as “(Adv. Dkt. __)”; and (2) citations to docket entries in
the above-styled bankruptcy case (the “Bankruptcy Case”) are
cited as “(Bankr. Dkt. __)”.

App. 26
Arbitration (“Tower Loan’s Reply”) (Adv. Dkt. 21) filed
by Tower Loan in the Adversary. At the Hearing, Bryce
Kunz represented the Debtor, and Jeffrey Ryan Barber
represented Tower Loan. During the Hearing, the
Debtor and Tower Loan (collectively, the “Parties”)
introduced into evidence two (2) stipulated exhibits.
The issues in the Adversary are: (1) whether the
Parties formed an agreement to arbitrate and
(2) whether the arbitration agreement actually
contains a delegation clause requiring the Parties’
claims to proceed to arbitration. The Court, having
considered the pleadings, evidence, and arguments of
counsel, finds that the Parties did not agree to
arbitrate for the reasons set forth below.2
Jurisdiction
This Court has jurisdiction over the parties to and
the subject matter of this Adversary pursuant to 28
U.S.C. § 1334. Notice of the Motion to Dismiss or to
Compel Arbitration was proper under the
circumstances.
Facts
1. On November 8, 2016, the Debtor entered into
the Installment Loan Agreement and Disclosure
Statement (the “Loan Agreement”) with Tower Loan
(Ex. 1). The Debtor financed $4,481.98 with a 37.36%
annual rate of interest to be paid in twenty-six (26)
equal installments of $254.00 for a total payment to
2

Pursuant to Rule 52 of the Federal Rules of Civil Procedure, as
made applicable to the Adversary by Rule 7052 of the Federal
Rules of Bankruptcy Procedure, the following constitutes the
findings of fact and conclusions of law of the Court.

App. 27
Tower Loan of $6,604.00. (Id.) Additionally, the Debtor
obtained from Tower Loan credit life insurance at
$228.94 per annum, credit disability insurance at
$303.78 per annum, and credit property insurance at
$429.26 per annum. (Id.)
2. The Loan Agreement consists of one (1) page and
does not contain a merger clause.3 The Debtor’s
signature appears at the bottom of the document, and
the following language, in all capital letters, appears
directly above the Debtor’s signature: “Arbitration
Agreement: By signing below and obtaining this [l]oan,
[b]orrower agrees to the Arbitration Agreement on the
additional pages of this [a]greement. You should read
it carefully before you sign below. Important
provisions, including our privacy policy, are contained
on additional pages and incorporated herein.” (the
“Arbitration Disclaimer”) (Ex. 1).
3. The reverse side of the Loan Agreement contains
the Arbitration Agreement (the “First Arbitration
Agreement”) (Ex. 1). The First Arbitration Agreement
“applies to all claims and disputes between [b]orrower
and [l]ender,” including “[t]he loan [b]orrower is
obtaining from [l]ender today and any other loans or
3

A merger clause “signal[s] to the courts that the parties agree
that the contract is to be considered completely integrated.” Grand
Legacy, LLP v. Gant, 66 So. 3d 137, 145 (Miss. 2011). A standard
merger clause “achieves the purpose of ensuring that the contract
at issue invalidates or supersedes any previous agreements, as
well as negat[es] the apparent authority of an agent to later modify
the contract’s terms.” LHC Nashua P’ship, Ltd. v. PDNED
Sagamore Nashua, L.L.C., 659 F.3d 450, 460 (5th Cir. 2011)
(quoting Italian Cowboy Partners, Ltd. v. Prudential Ins. Co. of
Am., 341 S.W. 3d 323, 334 (Tex. 2011)).

App. 28
retail installment contracts with [l]ender” and “[a]ny
insurance purchased in connection with this loan or
any previous loan or retail installment sales contract.”
(Ex. 1).
4. The Loan Agreement provides that “[t]he
construction, validity, and enforcement of this loan
agreement shall be governed by the laws of the State of
Mississippi, without regard to the principles of conflicts
of laws.” (Ex. 1).
5. In Tower Loan’s Brief, Tower Loan asserts that
the First Arbitration Agreement contains a delegation
clause.
6. On January 17, 2017, the Debtor filed a petition
for relief under chapter 7 of the U.S. Bankruptcy Code
(Bankr. Dkt. 1).
7. On May 12, 2017, the Debtor filed the Complaint
in this Adversary alleging that Tower Loan violated the
Truth in Lending Act, 15 U.S.C. § 1600 et seq., and
Regulation 2 by providing misleading and incorrect
disclosures on the Loan Agreement (Adv. Dkt. 1 at 4-5).
For example, the Debtor alleges that Tower Loan did
not pay to the appropriate insurance company the
amounts required for the Debtor’s life insurance,
disability insurance, and property insurance (Adv.
Dkt. 1 at 3, ¶ 15). The Debtor further asserts that
Tower Loan “received an undisclosed commission from
these charges.” (Id.)
8. On June 22, 2017, Tower Loan filed the Answer
and Affirmative Defenses to Complaint [Adv. Proc.
Dkt. #3] [sic] (Adv. Dkt. 6). Tower Loan filed the
Amended Answer and Affirmative Defenses to

App. 29
Complaint [Adv. Proc. Dkt. #3] [sic] (the “Amended
Answer”) on October 30, 2017, denying that it violated
the Truth in Lending Act (Adv. Dkt. 22).4
9. On July 6, 2017, Tower Loan filed the Motion to
Dismiss or to Compel Arbitration. In support of
dismissal, Tower Loan asserted that the chapter 7
trustee (the “Trustee”) is the only party with standing
to pursue the Debtor’s claims against Tower Loan
because those claims became property of the estate
upon commencement of the Bankruptcy Case (Adv.
Dkt. 9). In support of compelling arbitration, Tower
Loan asserted that the Debtor signed the Loan
Agreement containing the Arbitration Disclaimer. (Id.)
10. On September 26, 2017, the Trustee filed the
Notice of Ratification of Real Party in Interest (Adv.
Dkt. 16).
11. On September 26, 2017, the Debtor filed the
Debtor’s Response. In support of denying dismissal, the
Debtor asserted that the Trustee, as the real party in
4

The first paragraph of the Amended Answer states: “Further, in
accordance with Federal Rules of Bankruptcy Procedure 7012(b)
and 9015(a), Miss. Bank. L.R. 7012-1 and 9015-1, and Federal Rule
of Civil Procedure 38, Country Credit, LLC demands a jury trial on
all of the claim [sic] raised in the Adversary Proceeding Complaint,
and Country Credit, LLC does not consent to having a jury trial
conducted by a Bankruptcy Judge under 28 U.S.C. § 157(e) or to
the entry of final orders or judgment by the Bankruptcy Court.”
(Adv. Dkt. 22 at 1) (emphasis added). In light of the pleadings and
arguments made by counsel at the Hearing, the Court notes that
this language in the Amended Answer is clearly the result of a
typographical error on behalf of Tower Loan. Country Credit, LLC
is not a party to the Adversary, and Tower Loan has requested the
Court to compel arbitration in lieu of litigation.

App. 30
interest, ratified the Adversary. In support of litigation,
the Debtor asserted that it was unclear whether he
actually agreed to the arbitration agreement and that
procedural unconscionability precluded enforcing the
First Arbitration Agreement. The Debtor attached the
Affidavit of Chuck Wills to the Debtor’s Response.
12. On October 10, 2017, Tower Loan filed Tower
Loan’s Reply withdrawing its contention that the
Debtor lacked standing. Tower Loan further asserted
that the Parties formed a valid agreement to arbitrate
and that the First Arbitration Agreement is not
unconscionable. Additionally, Tower Loan argued that
unconscionability is an issue for the arbitrator to decide
since the First Arbitration Agreement contains a
delegation clause.
13. At the Hearing, the Parties presented to the
Court, for the first time, the Endorsement to Require
Binding Arbitration (the “Second Arbitration
Agreement”) (together with the First Arbitration
Agreement, the “Arbitration Agreements”) (Ex. 2). The
Second Arbitration Agreement “applies to all claims
and disputes between [b]orrower and the [c]ompany,”
including “the loan [b]orrower is obtaining from the
lender today, any other loans or retail installment
contracts with the [l]ender,” and “any insurance
purchased from the [c]ompany in connection with the
loan or any previous loan or retail installment sales
contract.” (Ex. 2). Tower Loan explained that the
Second Arbitration Agreement makes up the

App. 31
“additional pages” referenced in the Loan Agreement’s
Arbitration Disclaimer.5
14. The Arbitration Agreements contain conflicting
arbitration provisions. The conflicts involve: (1) the
number of arbitrators,6 (2) how the arbitrator(s) will be
selected,7 (3) the notice required to arbitrate,8 (4) the
location of the arbitration,9 (5) who pays the costs of the

5

10:10:32 – 10:10:52. The Hearing was not transcribed. References
to argument presented at the Hearing is cited by the timestamp of
the audio recording.
6

The First Arbitration Agreement provides that “[t]he dispute
shall be heard by a single arbitrator,” but the Second Arbitration
Agreement permits a party to request a panel of three arbitrators.
7

The First Arbitration Agreement provides that “[i]f an answering
statement is filed and the parties cannot agree upon the arbitrator,
then the provisions of the Federal Arbitration Act (9 U.S.C. §5),
shall apply,” but the Second Arbitration Agreement provides that
“[i]f an answering statement is filed and the parties cannot agree
upon the arbitrator, the National Arbitration Forum shall appoint
the arbitrator.”
8

The First Arbitration Agreement requires a thirty (30)-day notice
period before proceeding to arbitration, whereas the Second
Arbitration Agreement requires only twenty (20) days.
Additionally, under the Arbitration Agreements, if a party files an
answering statement after the expiration of the notice period, the
opposing party selects the arbitrator.
9

The First Arbitration Agreement provides that “[t]he arbitration
shall be held in Rankin County, Mississippi, unless the [b]orrower
requests in the demand for arbitration or the answering
statement, the arbitration to be held in his, her, or its county of
residence or principal place of business,” but the Second
Arbitration Agreement provides automatically for the arbitration
to be held in the borrower’s county of residence.

App. 32
arbitration,10 (6) who would be entitled to attorneys’
fees and on what showing,11 and (7) when arbitration
proceedings need not be initiated.12 (Ex. 1; Ex. 2).
15. At the Hearing, the Debtor argued that because
the Arbitration Agreements govern “all claims and
disputes between the Parties” but contain different and
conflicting terms, there was no meeting of the minds
between the Parties with respect to arbitration.13 In
response, Tower Loan asserted that the Parties
reached a meeting of the minds with respect to

10

The First Arbitration Agreement provides that the “[l]ender
shall pay the arbitrator’s fees and expenses for the first two days
of hearings.” Further, the First Arbitration Agreement provides
that “[i]n his decision or award, the arbitrator shall direct the
parties to pay his or her fees and other costs according to the
relative fault of the parties.” Additionally, the Second Arbitration
Agreement provides that “the [c]ompany shall pay all costs of the
arbitration,” excluding attorneys, experts, and witness fees and
expenses.
11

The First Arbitration Agreement does not address which party
is responsible for paying attorneys, experts, and witness fees and
expenses. The Second Arbitration Agreement, however, provides
that “each party must bear the cost of its own attorneys, experts
and witness fees and expenses,” unless the arbitrator chooses to
award otherwise.
12

Under the First Arbitration Agreement, the “[l]ender is not
required to initiate arbitration proceedings for collection matters
of $10,000 or less or before repossessing collateral or foreclosing
upon real property. However, disputes arising out of or relating to
foreclosure or repossession of collateral shall be arbitrated.” The
Second Arbitration Agreement, however, contains no such carve
out.
13

10:22:40 – 10:22:57.

App. 33
arbitration.14 More specifically, Tower Loan argued
that the First Arbitration Agreement governs the Loan
Agreement, and the Second Arbitration Agreement
relates only to disputes concerning insurance
companies and policies.15 With respect to the
Adversary, Tower Loan asserted that it would proceed
only under the First Arbitration Agreement because
the Complaint does not raise any insurance-related
claims.16
Discussion
The Supreme Court of the United States has long
acknowledged “a national policy favoring arbitration
when the parties contract for that mode of dispute
resolution.” Preston v. Ferrer, 552 U.S. 346, 349 (2008).
Indeed, the Federal Arbitration Act (FAA) provides
that “[a] written provision in . . . a contract evidencing
a transaction involving commerce to settle by
arbitration a controversy thereafter arising out of such
contract . . . shall be valid, irrevocable, and enforceable,
save upon such grounds as exist at law or in equity for
the revocation of any contract. 9 U.S.C. § 2. With this
policy in mind, however, “courts must place arbitration
agreements on an equal footing with other contracts . . .
and enforce them according to their terms.” AT&T
Mobility LLC v. Concepcion, 563 U.S. 333, 339 (2011);
see Buckeye Check Cashing, Inc. v. Cardegna, 546 U.S.
440, 443 (2006); Volt Info. Scis., Inc. v. Bd. of Trs. of the

14

10:30:45 – 10:30:54.

15

10:30:58 – 10:31:17.

16

10:31:18 – 10:31:29.

App. 34
Leland Stanford Junior Univ., 489 U.S. 468, 478
(1989).
Thus, the enforcement of an arbitration agreement
is a matter of both contract formation and contract
interpretation. Kubala v. Supreme Prod. Srvs., Inc.,
830 F.3d 199, 201 (5th Cir. 2016). The Fifth Circuit
Court of Appeals has established a two-prong test for
courts to follow when ruling on a motion to compel
arbitration: (1) “whether the parties entered into any
arbitration agreement at all” and (2) “whether this
claim is covered by the arbitration agreement.” Id.
When an “arbitration agreement contains a delegation
clause giving the arbitrator the primary power to rule
on the arbitrability of a specific claim . . . the court’s
power to decide arbitrability questions [transfers] to
the arbitrator.” Id. at 201-02. In other words, “a valid
delegation clause requires the court to refer a claim to
arbitration to allow the arbitrator to decide gateway
arbitrability issues.” Id. at 202; see Rent-A-Center, W.,
Inc. v. Jackson, 561 U.S. 63, 68-69 (2010). When a
“party seeking arbitration points to a purported
delegation clause,” the court limits its analysis to that
of contract formation and answers only the question of
whether the parties entered into an agreement to
arbitrate some set of claims. Kubala, 830 F.3d at 202.
If the court finds both a valid agreement to arbitrate
and a delegation clause within that agreement, “the
motion to compel arbitration should be granted in
almost all cases.” Id.
Here, Tower Loan contends that the First
Arbitration Agreement contains a valid and enforceable
delegation clause (Adv. Dkt. 9). As a result, the Court

App. 35
will address two issues: first, whether the Parties
entered into a valid agreement to arbitrate a set of
claims; and second, whether that agreement contains
a delegation clause requiring the Parties’ claims to
proceed to arbitration “for gateway rulings on threshold
arbitrability issues.” Id.
A. Did the Parties enter into a valid agreement
to arbitrate a set of claims?
The “federal policy favoring arbitration does not
apply to the determination of whether there is a valid
agreement to arbitrate between the parties.” Fleetwood
Enters., Inc. v. Gaskamp, 280 F.3d 1069, 1073-74 (5th
Cir. 2002); see also Volt Info. Scis., Inc., 489 U.S. at 478
(“[T]he FAA does not require parties to arbitrate when
they have not agreed to do so.”). Instead, state contract
law determines whether parties entered into a valid
agreement to arbitrate a set of claims. Kubala, 830
F.3d at 202. Since the Loan Agreement provides that
Mississippi law governs “[t]he construction, validity
and enforcement of th[e] loan agreement” and the
Parties directed the Court to Mississippi law in their
pleadings and at the Hearing, the Court will apply
Mississippi law to determine whether the Parties
entered into a valid agreement to arbitrate their
claims.
Under Mississippi law, “[a] contract is
unenforceable if the material terms are not sufficiently
definite.” Rotenberry v. Hooker, 864 So. 2d 266, 270
(Miss. 2003). A contract is sufficiently definite when it
contains enough information to “enable the court under
proper rules of construction to ascertain its terms.”
Hunt v. Coker, 741 So. 2d 1011, 1014 (Miss. 1999)

App. 36
(quoting Leach v. Tingle, 586 So. 2d 799, 802 (Miss.
1991)). Additionally, a meeting of the minds is essential
for an agreement to be valid and binding upon the
parties. Davis v. Davis (Estate of Davis), 832 So. 2d
534, 537 (Miss. App. Ct. 2001); see Union Planters
Bank, Nat’l. Ass’n v. Rogers, 912 So. 2d 116, 120 (Miss.
2005) (“A cardinal rule of construction of a contract is
to ascertain the mutual intentions of the parties.”).
While no Mississippi court17 has addressed whether
parties can be compelled to arbitrate under conflicting
arbitration agreements, other courts have found that
conflicting arbitration agreements eliminate the duty
to arbitrate.18
1. The Tenth Circuit Court of Appeals’
Decision
In Ragab v. Howard, 841 F.3d 1134 (10th Cir.
2016), the Tenth Circuit Court of Appeals held that
“conflicting details in the multiple arbitration
provisions indicate that there was no meeting of the
17

In the Motion to Dismiss or to Compel Arbitration, Tower Loan
references this Court’s Memorandum Opinion and Order Granting
Motion of the Bilco Company for Relief from the Automatic Stay to
Complete Arbitration, In re Katon, Inc., No. 08-02266-NPO
(Dkt. 73) (Bankr. S.D. Miss. Nov. 13, 2008). In re Katon, Inc. is not
factually analogous to the Adversary because it does not involve
conflicting arbitration agreements, but rather a single arbitration
agreement executed by the parties after the execution of the
underlying agreements in which the parties agreed to arbitrate the
non-core proceeding filed in state court. Accordingly, the Court
does not find In re Katon, Inc. persuasive in the Adversary.
18

See, e.g., In re Toyota Motor Corp. Unintended Acceleration
Mktg., Sales Practices, and Prods. Liab. Litig., 838 F. Supp. 2d
967, 992 (C.D. Cal. 2012); Basulto v. Hialeah Auto., 141 So. 3d
1145, 1156 (Fla. 2014).

App. 37
minds with respect to arbitration.” Id. at 1138. In
Ragab, the parties entered into a business relationship
evidenced by six agreements containing conflicting
arbitration provisions. Id. at 1136. The conflicts
involved the following: “(1) which rules will govern,19
(2) how the arbitrator will be selected,20 (3) the notice
required to arbitrate,21 and (4) who would be entitled to
attorneys’ fees and on what showing.”22 Id. A few years
later, plaintiff sued the defendants for
misrepresentation and violation of consumer credit
repair statutes. The district court found that all six
agreements governed plaintiff’s claims. The defendants
moved to compel arbitration, and the district court
denied the motion, “concluding that there was no
actual agreement to arbitrate as there was no meeting
of the minds as to how claims that implicated the
numerous agreements would be arbitrated.” Id. The
defendants appealed.
19

One agreement provided that Colorado’s Uniform Arbitration
Act of 1975 would govern, three agreements provided that the AAA
Commercial Arbitration Rules would govern, and one agreement
provided that the “Rules of the Colorado Court” would govern the
arbitration. Ragab, 841 F.3d at 1136 n.1.
20

One agreement provided that the parties would choose the
arbitrator. If the parties could not agree upon an arbitrator, a state
court would appoint one. Three agreements provided that the
American Arbitration Association (AAA) would choose the
arbitrator. Id.
21

One agreement required a thirty (30)-day notice period, and two
agreements required only a ten (10)-day notice period before
beginning arbitration. Id.
22

One agreement required each party to pay its own costs and fees,
but three agreements allowed for the arbitrator to award costs and
fees to the prevailing party. Id.

App. 38
Upon review, the Tenth Circuit applied Colorado
law to determine whether the parties agreed to
arbitrate. Id. at 1137. The applicable state law required
the parties to achieve a meeting of the minds with
respect to the agreement and agree on all essential
terms. Id. The Tenth Circuit looked to the New Jersey
court’s decision in NAACP of Camden County East v.
Foulke Management Corporation, 24 A.3d 777 (N.J.
Super. Ct. App. Div. 2011), for guidance on whether the
parties achieved a meeting of the minds on the decision
to arbitrate their claims.23
In NAACP, the parties presented the court with
three agreements that each contained an arbitration
provision. NAACP of Camden Cty. E., 24 A.3d at 78182. Similar to the arbitration agreements in Ragab,
these arbitration provisions contained several
inconsistencies. Id. at 794. For example, “the
documents d[id] not clearly and consistently express
the nature and locale of the arbitration forum itself.”
Id. The first agreement provided that the venue of the
arbitration would lie in the federal district in which the
purchaser resided, the second agreement more
narrowly provided that venue would lie in the
customer’s county of residence, and the third
agreement more broadly provided that venue would lie
in New Jersey, unless otherwise agreed upon by the
parties. Id. Further, “[t]he form documents . . . d[id] not
make clear the time limit in which arbitration must be
initiated.” Id. The first agreement did not contain a
time limitation, the second agreement indicated that
all applicable statutes of limitation applied, and the
23

The Tenth Circuit considered NAACP because there were no
factually analogous cases in Colorado.

App. 39
third agreement required the purchaser to bring all
claims within 180 days from the date of the agreement,
while also providing that it would not affect applicable
statutes of limitation. Id. at 794-95. “Equally murky,”
the agreements contained various provisions describing
the arbitration costs. Id. at 795-96. The cost provisions
in one agreement were “in some respects potentially
less favorable to the purchaser, . . . in some respects
potentially more favorable, and in some respects
unclear.” Id. at 795.
Based on these conflicts, the New Jersey court
found that “the arbitration provisions . . . [were] too
plagued with confusing terms and inconsistencies to
put a reasonable consumer on fair notice of their
intended meaning.” Id. at 794. Thus, the New Jersey
court held that the conflicting arbitration provisions
were “unenforceable for lack of mutual assent.” Id. at
798. Because of NAACP’s factual similarities to Ragab
and the Supreme Court of the United States’ finding in
AT&T Mobility LLC that “the FAA does not require an
arbitration provision to be enforced if the provision is
defective for reasons other than public policy or
unconscionability,” the Tenth Circuit adopted the
reasoning of the court in NAACP and affirmed the
district court’s decision, holding that the parties did not
achieve a meeting of the minds with respect to

App. 40
arbitration.24 Ragab, 841 F.3d at 1138; see AT&T
Mobility LLC, 563 U.S. at 344.
Associate Justice Neil Gorsuch, former Circuit
Judge for the Tenth Circuit Court of Appeals, dissented
in Ragab, arguing that the parties formed a valid
agreement to arbitrate their claims. Ragab, 841 F.3d at
1139 (Gorsuch, J., dissenting). As a preliminary
matter, Justice Gorsuch noted that Ragab involved
sophisticated parties to a commercial deal. In fact,
plaintiff’s counsel drafted three of the agreements
containing arbitration clauses. Id. While
acknowledging that the agreements differed on “the
details concerning how arbitration should proceed,”
Justice Gorsuch argued that “treating the procedural
details surrounding the arbitration . . . as nonessential
terms would do a good deal more to ‘effectuate[] the
intent of the parties’ . . . itself always the goal of
contract interpretation.” Id. (citing Lane v. Urgitus, 145
P.3d 672, 677 (Colo. 2006)). To do this, Justice Gorsuch
proposed two courses of action. First, the plaintiff could
initiate arbitration under the agreement of his choosing
because “the defendants have expressly acknowledged
that his claims f[ell] within the scope of every single
agreement.” Ragab, 841 F.3d at 1139 (Gorsuch, J.
dissenting). Second, the state’s preference for
24

The Tenth Circuit noted that “[c]ourts have granted motions to
compel despite the existence of conflicting arbitration provisions
when the contracts themselves provide the solution.” Ragab, 841
F.3d at 1138; see Ex parte Palm Harbor Homes, Inc., 798 So. 2d
656, 660 (Ala. 2001) (compelling arbitration when a contract
includes an arbitration provision and a merger clause because the
merger clause enables the arbitration provision to supersede other,
conflicting provisions). None of the agreements in Ragab, however,
contained merger clauses. Ragab, 841 F.3d at 1138.

App. 41
arbitration has caused it to enforce arbitration clauses
stating only that claims “shall be submitted to binding
arbitration” with no mention of procedural details. Id.
The procedural details can later be established by the
FAA or state statutory law. Id. at 1139-40.
Next, Justice Gorsuch explained a “battle of the
forms” analogy where “purchasers and vendors agree to
transact but each side memorializes the deal on its own
standard forms.” Id. at 1140. When these forms contain
conflicting terms, they “knock each other out but do not
void the contract.” Id. Under the Uniform Commercial
Code, “a meeting of the minds occurs with respect to
the fundamentals of the deal even if not with respect to
the details.” Id. Since the case involved sophisticated
parties who mutually contributed to drafting the
agreements, Justice Gorsuch argued that a “battle of
the forms” approach would better serve the parties’
intent to arbitrate their claims rather than “allowing
the plaintiff to escape the consequences of a choice he
once so clearly preferred but now simply regrets.” Id.
To protect consumers, New Jersey courts stress a
“need for clarity” in arbitration agreements and take
“particular care” in assessing mutual asset because of
a consumer’s inferior bargaining power. Id.; see NAACP
of Camden Cty. E., 24 A.3d at 790-91, 97. Justice
Gorsuch, however, did not find NAACP persuasive
because Ragab “involve[d] parties to a commercial, not
a consumer, transaction, with contracts actively
negotiated by both sides, not contracts of adhesion
thrust upon the plaintiff.” Ragab, 841 F.3d at 1140.
When a state has not adopted a public policy statute
requiring clarity in a consumer contract, Justice

App. 42
Gorsuch argues that the court should further the
national policy favoring arbitration and not create
barriers to arbitration, particularly in a commercial
setting where the parties are represented by counsel
and “have so clearly and repeatedly demonstrated their
desire to arbitrate.” Id. Justice Gorsuch did not provide
any citations to cases where courts compelled
arbitration when an agreement contained materially
inconsistent and conflicting arbitration provisions.
With NAACP, Ragab, and Justice Gorsuch’s dissent in
Ragab in mind, the Court now turns to the Adversary
to determine precisely the same issue—whether the
Parties formed a valid agreement to arbitrate their
claims.
2. The Adversary
In its opening remarks at the Hearing, Tower Loan
argued that the First Arbitration Agreement contains
a delegation clause and, therefore, the Court’s analysis
is limited to whether the Parties entered into a valid
agreement to arbitrate their claims and whether the
agreement actually contains a delegation clause
requiring the claims to proceed to arbitration for
gateway rulings.25 Tower Loan argued that the Parties
undisputedly agreed to arbitrate their claims because
the Debtor signed both the Loan Agreement containing
the First Arbitration Agreement and the Second
Arbitration Agreement.26 Additionally, Tower Loan
explained that Mississippi law requires a borrower to
read documents before applying his signature, and the
25

10:13:36 – 10:15:15; see Kubala, 830 F.3d at 202.

26

10:08:40 – 10:09:00.

App. 43
Debtor cannot avoid arbitration simply because he did
not know the terms of the Loan Agreement.27 In
response, the Debtor contended that while he did sign
both the Loan Agreement containing the First
Arbitration Agreement and the Second Arbitration
Agreement, the Arbitration Agreements contain
inconsistent and conflicting terms.28 Because of the
inconsistent and conflicting terms, the Debtor argued
that the Parties did not achieve a meeting of the minds
on the decision to arbitrate their claims.29 Tower Loan,
however, claimed that the Parties reached a meeting of
the minds with respect to arbitration.30 In support its
argument, Tower Loan contended that the Arbitration
Agreements govern different issues and/or parties, and
the Second Arbitration Agreement relates only to
claims against insurance companies arising out of
insurance policies.31 To the extent that the Arbitration
27

10:13:10 – 10:13:24.

28

10:22:40 – 10:22:57.

29

10:22:58 – 10:28:02.

30

10:30:45 – 10:30:54.

31

10:30:58 – 10:31:17. In support of its argument that the Second
Arbitration Agreement applies only to claims against insurance
companies arising out of insurance policies, Tower Loan
highlighted the following provisions: (1) the title of the agreement
is “Endorsement to Require Binding Arbitration;” (2) the Second
Arbitration Agreement defines “Company” as “the insurance
company or companies as marked below;” (3) the last paragraph of
the Second Arbitration Agreement provides that “[t]his
endorsement applies to the policy or policies issued by the
[c]ompany or [c]ompanies marked below;” and (4) American
Federated Life Insurance Company and American Federated
Insurance Company are the only companies listed, and both are
marked with an “X.” (Ex. 2).

App. 44
Agreements conflict, Tower Loan argued that the
inconsistencies are irrelevant because, in the
Adversary, Tower Loan is proceeding only under the
First Arbitration Agreement.32 Because Tower Loan
asserted that the Arbitration Agreements govern
separate issues and/or parties, and the Debtor
maintained that the Arbitration Agreements
encompass all parties and claims but contain
inconsistent and conflicting procedural provisions, the
Court will first address whether the Arbitration
Agreements govern separate issues and/or parties to
determine if the inconsistent and conflicting provisions
should impact the Court’s analysis on whether the
Parties achieved a meeting of the minds with respect to
arbitration.
After reviewing the Loan Agreement and the
Arbitration Agreements, the Court finds that the
Arbitration Agreements govern claims against Tower
Loan both arising under the Loan Agreement and out
of insurance policies. For example, the First
Arbitration Agreement “applies to all claims and
disputes between [b]orrower and [l]ender . . .
includ[ing] . . . all claims and disputes arising out of . . .
[t]he loan [b]orrower is obtaining from [l]ender today
and . . . [a]ny insurance purchased in connection with
this loan.” (Ex. 1, ¶ 1) (emphasis added). Additionally,
the First Arbitration Agreement “applies to all disputes
and claims between [b]orrower and [l]ender, [l]ender’s
agents, employees, affiliated corporations and the
employees or agents of these affiliated companies.” (Id.
¶ 2) (emphasis added). The lender is defined as Tower
32

10:31:18 – 10:31:29.

App. 45
Loan of Mississippi, LLC, and the affiliated companies
include, without limitation, “American Federated
Insurance Company, American Federated Life
Insurance Company, First Tower Loan LLC, Tower
Loan of Mississippi LLC, Gulfco of Mississippi LLC,
Gulfco of Alabama LLC, Gulfco of Louisiana LLC,
Tower Loan of Missouri LLC, and First Tower LLC.”
(Id.) (emphasis added). Further, the Second Arbitration
Agreement “applies to all claims and disputes between
[b]orrower and the [c]ompany . . . includ[ing] . . . all
claims and disputes arising out of . . . the loan
[b]orrower is obtaining from the lender today [and] . . .
any insurance purchased from the [c]ompany in
connection with the loan.” (Ex. 2, ¶ 1) (emphasis
added). The Second Arbitration Agreement also
“applies to all disputes and claims between [b]orrower
and the [c]ompany, the [c]ompany’s agents, employees,
affiliated corporations and the employees or agents of
these affiliated companies.” (Id. ¶ 2) (emphasis added).
The company is defined as both American Federated
Life Insurance Company and American Federated
Insurance Company, and the affiliated companies
include, without limitation, “First Tower Loan, LLC,
FT Finance Holding LLC, Tower Loan of Mississippi,
LLC, and Gulfco of Mississippi, LLC.” (Id.) (emphasis
added). After drafting the Arbitration Agreements as
broadly as possible, Tower Loan cannot now
“arbitrarily pick one to enforce [in the Adversary]
because doing so could violate the other.” Ragab, 841
F.3d at 1138. The Court finds that the Arbitration
Agreements’ inconsistent and conflicting provisions,
therefore, are relevant to its determination of whether

App. 46
the Parties achieved a meeting of the minds with
respect to arbitration.33
Similar to the courts in Ragab and NAACP, the
Court finds that the Arbitration Agreements contain
several material conflicts and inconsistencies. The
conflicts and inconsistencies concern the following:
(1) the number of arbitrators, (2) how the arbitrator(s)
will be selected, (3) the notice required to arbitrate,
(4) the location of the arbitration, (5) who pays the
costs of the arbitration, (6) who would be entitled to
attorneys’ fees and on what showing, and (7) when
arbitration proceedings need not be initiated. The
Court will address each in turn.
First, the First Arbitration Agreement provides that
“[t]he dispute shall be heard by a single arbitrator.”
(Ex. 1, ¶ 4). The Second Arbitration Agreement,
however, permits a party to request “a panel of three
arbitrators instead of a single arbitrator.” (Ex. 2, ¶ 4).
Thus, the Arbitration Agreements are inconsistent.
Second, and similar to Ragab, the First Arbitration
Agreement provides that “[i]f an answering statement
is filed and the parties cannot agree upon the
arbitrator, then the provisions of the Federal
Arbitration Act (9 U.S.C. §5), shall apply.” (Ex. 1, ¶ 4).
Under this provision, “the court shall designate and
33

Since the Loan Agreement does not contain a merger clause, the
Court is unable to discern whether one arbitration agreement
could potentially supersede the other arbitration agreement. See
Ex parte Palm Harbor Homes, Inc., 798 So. 2d at 660 (compelling
arbitration when a contract includes an arbitration provision and
a merger clause because the merger clause enables the arbitration
provision to supersede other, conflicting provisions).

App. 47
appoint an arbitrator or arbitrators or umpire, as the
case may require, who shall act under the said
agreement with the same force and effect as if he or
they had been specifically named therein.” 9 U.S.C. § 5.
In the Second Arbitration Agreement, however, “[i]f an
answering statement is filed and the parties cannot
agree upon [the] arbitrator, the National Arbitration
Forum34 shall appoint the arbitrator.” (Ex. 2, ¶ 4). The
Arbitration Agreements, therefore, conflict with each
other.35
34

On July 14, 2009, the Minnesota Attorney General filed a
lawsuit against the National Arbitration Forum “(NAF)” for
alleged violation of various state consumer protection laws,
deceptive trade practices, and false advertising. See Complaint,
State of Minnesota v. National Arbitration Forum, Inc., et. al.,
No. 27-CV-09-18550 (Dkt. 1) (D. Minn. July 14, 2009). The
Complaint alleged that the NAF, in an attempt to earn revenue,
“work[ed] alongside creditors behind the scenes—against the
interests of consumers—to convince creditors to place mandatory
pre-dispute arbitration clauses in their customer agreements and
to appoint the [NAF] as the arbitrator of any disputes that may
arise in the future.” Id. The Complaint further alleged that the
NAF “hid[] from the public . . . that [it] is financially affiliated with
a New York hedge fund group that owns one of the country’s major
debt collection enterprises.” Id. Shortly after the filing of the
Complaint, the NAF agreed to “permanently stop administering
arbitrations involving consumer debt.” Press Release, State of
Minnesota Office of the Attorney General, National Arbitration
Forum Barred from Credit Card and Consumer Arbitrations under
Agreement with Attorney General Swanson (July 19, 2009),
http://static.cbslocal.com/station/wcco/news/local/09_0719_
agsuesnationalarbitrationforum.pdf. Accordingly, under the
Second Arbitration Agreement, it is unclear how an arbitrator
would be appointed if the Parties do not agree upon an individual.
35

The Court acknowledges that this inconsistency could be
remedied by the FAA or a statutory gap-filler. See Deaton Truck
Line, Inc. v. Local Union 612, Affiliated with the Int’l. Bhd. of

App. 48
Third, and similar to Ragab, the First Arbitration
Agreement requires a thirty (30)-day notice period
before proceeding to arbitration (Ex. 1, ¶ 3), whereas
the Second Arbitration Agreement requires only twenty
(20) days (Ex. 2, ¶ 3). Additionally, under the
Arbitration Agreements, if a party files an answering
statement after the expiration of the notice period, the
opposing party selects the arbitrator. (Ex. 1, ¶ 4; Ex. 2,
¶ 4). Thus, the Arbitration Agreements conflict with
each other.
Fourth, and similar to NAACP, the First Arbitration
Agreement provides that “[t]he arbitration shall be
held in Rankin County, Mississippi, unless the
[b]orrower requests in the demand for arbitration or
the answering statement, the arbitration to be held in
his, her, or its county of residence or principal place of
business.” (Ex. 1, ¶ 5). The Second Arbitration
Agreement, however, provides automatically for the
arbitration to be held in the borrower’s county of
residence (Ex. 2, ¶ 5). The Arbitration Agreements,
therefore, are inconsistent.
Fifth, and similar to Ragab and NAACP, the First
Arbitration Agreement provides that the “[l]ender shall
pay the arbitrator’s fees and expenses for the first two
days of hearings.” (Ex. 1, ¶ 4) Further, the First
Arbitration Agreement provides that “[i]n his decision
or award, the arbitrator shall direct the parties to pay
Teamsters, Chauffeurs, Warehousemen and Helpers of Am., 314
F.2d 418 (5th Cir. 1962) (compelling arbitration when the
agreement did not name an arbitrator because the FAA provides
a mechanism for the selection of an arbitrator when the parties are
unable to agree upon an individual).

App. 49
his or her fees and other costs according to the relative
fault of the parties.” (Id.) Thus, the First Arbitration
Agreement is internally inconsistent. While the
document requires Tower Loan to pay the arbitrator’s
fees and expenses for the first two days of hearings, the
arbitrator is also required to apportion his fees and
costs between the Parties in accordance with their
relative fault. In theory, then, the Debtor could be
responsible for paying the entirety of the arbitrator’s
fees and costs. Additionally, the Second Arbitration
Agreement provides that “the [c]ompany shall pay all
costs of the arbitration,” excluding attorneys, experts,
and witness fees and expenses (Ex. 2, ¶ 4). The
Arbitration Agreements, therefore, conflict with each
other. The Court is unable to discern whether Tower
Loan pays none, some, or all of the costs under the
Arbitration Agreements.36
Sixth, and similar to Ragab and NAACP, the First
Arbitration Agreement does not address which party is
responsible for paying attorneys, experts, and witness
fees and expenses. The Second Arbitration Agreement,
36

At the Hearing, Tower Loan asserted that it will pay the fee to
initiate arbitration and all costs and fees of the arbitration. Tower
Loan cannot, after acknowledging that the Arbitration Agreements
contain inconsistencies, arbitrarily choose the provision more
favorable to the Debtor in an attempt to force him into arbitration.
See Sullivan v. Protex Weatherproofing, Inc., 913 So. 2d 256, 265
(Miss. 2005) (quoting Fit Tech, Inc. v. Bally Total Fitness Holding
Corp., 374 F.3d 1, 10 (1st Cir. 2004) (“No one can seriously argue
that clauses can be plucked at random from one agreement and
inserted into the other.”). To form a contract, the material terms
must be “sufficiently definite,” and the parties must achieve a
meeting of the minds with respect to the agreement. See Union
Planters Bank, Nat’l. Ass’n, 912 So. 2d at 120; Rotenberry, 864 So.
2d at 270.

App. 50
however, provides that “each party must bear the cost
of its own attorneys, experts and witness fees and
expenses,” unless the arbitrator chooses to award
otherwise (Ex. 2, ¶ 4). Thus, the Arbitration
Agreements are inconsistent.
Seventh, the First Arbitration Agreement does not
require the lender “to initiate arbitration proceedings
for collection matters of $10,000 or less or before
repossessing collateral or foreclosing upon real
property. However, disputes arising out of or relating
to foreclosure or repossession of collateral shall be
arbitrated.” (Ex. 1, ¶ 8). The Second Arbitration
Agreement contains no such carve out. The Arbitration
Agreements, therefore, are inconsistent and suggest
that all material terms are not “sufficiently definite.”
While Justice Gorsuch raised many concerns in
Ragab, the Court can distinguish his dissent from the
issues raised in the Adversary. First, the Debtor is not
a sophisticated party. The Debtor is a truck driver and
mechanic who was not represented by counsel when he
signed the Arbitration Agreements (Adv. Dkt. 17).
Further, and unlike the plaintiff in Ragab, the Debtor
did not participate in the negotiation or drafting of the
Loan Agreement and the Arbitration Agreements—
these documents were created by Tower Loan.
Accordingly, the claims in the Adversary arise out of a
consumer, rather than a commercial, transaction.
Second, and unlike the defendants in Ragab, Tower
Loan has not acknowledged that the Debtor’s claims
fall within the scope of the Second Arbitration
Agreement. Instead, Tower Loan maintains that the
Second Arbitration Agreement governs only claims

App. 51
against insurance companies arising out of insurance
policies. Tower Loan desires to proceed exclusively
under the First Arbitration Agreement. The Debtor,
therefore, “would [not] be free to initiate arbitration
under the terms of whichever . . . agreement[] he
prefers.” See Ragab, 841 F.3d at 1139 (Gorsuch, J.,
dissenting). Additionally, the Arbitration Agreements
each contain both favorable and unfavorable provisions
with respect to the Debtor. For the Debtor to proceed
unprejudiced, he would need to “pick and choose”
provisions from each agreement to govern the
arbitration. Third, while courts have compelled
arbitration where the agreement included only a
provision requiring arbitration,37 the Arbitration
Agreements, like those in Ragab, contain “multiple,
specific, conflicting arbitration provisions, and not one
general or vague arbitration clause.” Ragab, 841 F.3d
at 1138. Although the FAA and other statutory
authority provide mechanisms to fill gaps in an
otherwise valid agreement, they are unable to reconcile
the multiple, specific, inconsistent and conflicting
provisions contained in the Arbitration Agreements.
Lastly, because the Adversary involves a consumer
transaction, an analogy to the “mirror image” rule,
rather than the “battle of the forms” doctrine or
“knockout rule” governed by the Uniform Commercial
Code, is more applicable. See In re Whatever, LLC, 478
B.R. 700, 709 (Bankr. W.D. Pa. 2012) (“The ‘knockout
rule’ is a statutory exception to the mirror image rule
. . . [and] only applies to transactions in goods.”). The
37

See Guthrie v. Barda, 533 P.2d 487, 487 (Colo. 1975) (compelling
arbitration when the agreement stated only that claims “shall be
submitted to binding arbitration”).

App. 52
mirror image rule, which controls at common law,
states that a contract forms where there is an
“unconditional acceptance of the offer.” Sutter-Van
Horn Co. v. Miss. Home Tel. Co., 69 So. 996, 997 (Miss.
1915). Additionally, “not only must the acceptance be
unconditional, but it must be identical with the terms
of the offer. It must not vary from the proposal, either
by way of omission, addition, or alteration. If it does,
neither party is bound.” Id. (quoting 1 ELLIOT ON
CONTRACTS §§ 37, 38; LAWSON ON CONTRACTS § 25 (2d
ed.)). Thus, consumer transactions are held to a
standard of higher specificity and clarity than
commercial transactions.
Turning to Tower Loan’s argument at the Hearing,
Mississippi recognizes the duty-to-read doctrine. See
Russell v. Performance Toyota, Inc., 826 So. 2d 719, 726
(Miss. 2002) (“In Mississippi, a person is charged with
knowing the contents of any document that he
executes.”); see also Cont’l Jewelry Co. v. Joseph, 105
So. 639, 639 (Miss. 1925) (“A person cannot avoid a
written contract which he has entered into on the
ground that he did not read it or have it read to him,
and that he supposed its terms were different, unless
he was induced not to read it or have it read to him by
fraudulent representations made to him by the other
party, on which he was entitled to rely.”). While the
Parties did not present to the Court any evidence of
fraudulent misrepresentation on behalf of Tower Loan,
the Arbitration Agreements contain numerous
materially inconsistent and conflicting provisions. As
a result, a prudent purchaser reading the Arbitration
Agreements would likely obtain only a generalized
sense that arbitration would resolve his or her claims

App. 53
because the Arbitration Agreements “do not plainly
convey—with precision and consistency—what the
exact terms and conditions of that arbitration process
would be.” NAACP of Camden Cty. E., 24 A.3d at 794.
Since Mississippi law requires a contract’s material
terms to be “sufficiently definite,” the Court follows
Ragab and finds that the conflicting and inconsistent
Arbitration Agreements indicate that the Parties did
not achieve a meeting of the minds with respect to
arbitration—the dispute could be governed by one or
three arbitrators; either the court or a dispute
resolution company that has since been renamed and
no longer services consumer arbitration disputes will
choose the arbitrator if the Parties cannot agree on a
candidate; the notice period to deliver an answering
statement to the other party is either thirty (30) days
or twenty (20) days, and there are consequences if the
answering statement is not timely filed; the Debtor
might be required to request that the arbitration be
held in his county of residence; Tower Loan might pay
no costs, two days of costs, or all costs of the
arbitration; the Debtor might be responsible for paying
all attorneys, experts, and witness fees; and Tower
Loan might not be bound to arbitrate claims for
collection matters of $10,000 or less, before
repossessing collateral or foreclosing upon real
property.38

38

Having reached this conclusion, it is unnecessary for the Court
to consider the unconscionability argument raised by the Debtor
in the Debtor’s Response but largely abandoned at the Hearing.

App. 54
B. Does the Arbitration Agreement contain a
delegation clause requiring the Parties’ claims
to proceed to arbitration?
Because the Court finds that no valid agreement to
arbitrate exists, it does not need to reach the issue of
whether the Arbitration Agreement actually contains
a delegation clause requiring the Parties’ claims to
proceed to arbitration for the arbitrator to decide
gateway arbitrability issues.
Conclusion
For the above and foregoing reasons, the Court
concludes that no actual agreement to arbitrate exists
because the Parties did not achieve a meeting of the
minds as to how to arbitrate claims under the
Arbitration Agreements. A separate final judgment
shall be entered in accordance with Rules 7054 and
9021 of the Federal Rules of Bankruptcy Procedure.
##END OF OPINION##

App. 55
UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF MISSISSIPPI
CASE NO. 17-00160-NPO
CHAPTER 7
ADV. PROC. NO. 17-00025-NPO
[Filed December 12, 2017]
____________________________________________
IN RE: CHUCK WILLIS,
)
)
DEBTOR.
)
)
CHUCK WILLIS
)
)
PLAINTIFF
)
)
VS.
)
)
TOWER LOAN OF MISSISSIPPI, LLC, d/b/a
)
TOWER LOAN OF CRYSTAL SPRINGS
)
)
DEFENDANT
)
____________________________________________ )
[SEAL]

SO ORDERED,
Judge Neil P. Olack
United States Bankruptcy Judge
Date Signed: December 12, 2017

The Order of the Court is set forth below. The
docket reflects the date entered.

App. 56
FINAL JUDGMENT DENYING DEFENDANT
TOWER LOAN’S MOTION TO DISMISS OR,
ALTERNATIVELY, TO COMPEL
ARBITRATION AND TO DISMISS OR STAY
CLAIMS PENDING ARBITRATION
Consistent with the Court’s Memorandum Opinion
and Order on Defendant Tower Loan’s Motion to
Dismiss or, Alternatively, to Compel Arbitration and to
Dismiss or Stay Claims Pending Arbitration (Adv.
Dkt. 27) entered on December 12, 2017,
IT IS HEREBY ORDERED AND ADJUDGED that
final judgment is entered denying the Defendant Tower
Loan’s Motion to Dismiss or, Alternatively, to Compel
Arbitration and to Dismiss or Stay Claims Pending
Arbitration (Adv. Dkt. 8) filed by Tower Loan of
Mississippi, LLC.
##END OF FINAL JUDGMENT##

App. 57

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60344
[Filed January 10, 2020]
_________________________________________
In the Matter of: CHUCK WILLIS
)
)
Debtor.
)
)
TOWER LOAN OF MISSISSIPPI, L.L.C.,
)
Doing Business as Tower Loan of
)
Crystal Springs,
)
)
Appellant,
)
)
v.
)
)
CHUCK WILLIS,
)
)
Appellee.
)
_________________________________________ )
Appeal from the United States District Court
for the Southern District of Mississippi
ON PETITION FOR REHEARING EN BANC
(Opinion Dec 12, 2019, 5 Cir., 2019, 944 F.3d 577)

App. 58
Before OWEN, Chief Judge, SMITH, and DENNIS,
Circuit Judges.
PER CURIAM:
(X)

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular service of the court
having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH Cir.
R. 35), the Petition for Rehearing En Banc is
DENIED.

( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
Cir. R. 35), the Petition for Rehearing En Banc
is DENIED.
ENTERED FOR THE COURT:
/s/
UNITED STATES CIRCUIT JUDGE

